   January 15, 2004




Financial Management

Promptness of FY 2004 Second
Quarter DoD Payments to the
Department of Treasury for
District of Columbia Water and
Sewer Services
(D-2004-043)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronym

DCWASA                District of Columbia Water and Sewer Authority
          Office of the Inspector General of the Department of Defense
Report No. D-2004-043                                                   January 15, 2004
   (Project No. D2003CG-0191.001)

      Promptness of FY 2004 Second Quarter DoD Payments to the
         Department of the Treasury for District of Columbia
                      Water and Sewer Services

                                    Executive Summary

Who Should Read This Report and Why? This report should be read by civil service
managers, uniformed officers, and other individuals who have a direct interest in, or are
in need of information about, the promptness of water and sewer payments to the District
of Columbia.

Background. The audit was conducted in response to Public Law 106-554, the
Consolidated Appropriations Act of 2001. The Act requires the inspector general of each
Federal agency that receives water and sewer services from the District of Columbia to
report to the Congressional Appropriations Committees on the promptness of payments
within 15 days of the start of each quarter. The District of Columbia Water and Sewer
Authority supplies both water and sewer services to Federal agencies and DoD
Components within the National Capital Region. The Department of the Treasury is the
collection agent for Federal agencies and DoD Components’ water and sewer payments,
with the Department of the Treasury submitting a single payment to the District of
Columbia Water and Sewer Authority. The DoD Components, composed of 16 separate
installations, sites, and organizations, are required to make advance quarterly payments to
the Department of the Treasury for estimated bills on anticipated water usage in FY 2004.
If the estimated bill is more than actual usage, the DoD Components receive a credit
3 years after the payment, which is the time it takes for billing reconciliation.

Results. DoD Components promptly made second quarter FY 2004 payments totaling
$1.2 million to the Department of the Treasury for District of Columbia water and sewer
services. Fort McNair, the Navy, Bolling Air Force Base, and Walter Reed Army
Medical Center were the only DoD Components required to pay this quarter. The
National Geospatial-Intelligence Agency, Washington Headquarters Services, Arlington
National Cemetery, and Fort Myer have credit balances from prior overpayments and
were not required to make quarterly payments for the FY 2004 second quarter.

Management Comments. We provided a draft of this report on January 8, 2004. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                   i

Background                                                          1

Objective                                                           2

Finding
     DoD FY 2004 Second Quarter Payments to the Department of
       the Treasury                                                 3

Appendixes
     A. Scope and Methodology                                       5
     B. Prior Coverage                                              6
     C. DoD Customers of the District of Columbia Water and Sewer
          Authority                                                 8
     D. Report Distribution                                         9
Background
    This audit was required by Public Law 106-554, the Consolidated Appropriations
    Act of 2001. Public Law 106-554 states:
               Not later than the 15th day of the month following each quarter, the
               inspector general of each Federal department, establishment, or agency
               receiving water services [or sanitary sewer services] from the District
               shall submit a report to the Committees on Appropriations of the House
               of Representatives and the Senate analyzing the promptness of
               payment with respect to the services furnished to such department,
               establishment, or agency.

    This report covers FY 2004 second quarter payments and is one in a series of
    reports discussing the promptness of DoD payments to the Department of the
    Treasury for District of Columbia water and sewer services.

    The District of Columbia Water and Sewer Authority. The District of
    Columbia supplies both water and sewer services to Federal agencies and DoD
    Components within the National Capital Region. Since October 1996, the
    District of Columbia Water and Sewer Authority (DCWASA) has been
    responsible for delivery of water and sewer services to DoD Components.
    DCWASA provides meter readings and annual estimated billings to the
    Department of the Treasury for water and sewer services provided to the Federal
    agencies, including DoD Components.

    Department of the Treasury Responsibility. Under the District of Columbia
    Public Works Act of 1954, the Federal Government was to receive water and
    sewer services from the District of Columbia, and the District of Columbia was
    paid with an annual lump sum in accordance with the District of Columbia
    Appropriations Act. The District of Columbia Appropriations Act of 1990
    (Public Law 101-168) changed the payment process by designating the
    Department of the Treasury as the collection agent for the Federal agencies’ water
    and sewer payments, with the Department of the Treasury remitting a single
    quarterly payment to the District of Columbia. Public Law 106-554 amends the
    process Federal agencies use for making payments to the Department of the
    Treasury. When agencies do not forward timely payments of amounts that
    DCWASA bills, the Department of the Treasury is now authorized and directed to
    automatically withdraw funds from Federal agencies and provide those funds to
    DCWASA by the second day of each quarter. The Department of the Treasury
    bills Federal agencies and DoD Components annually for their estimated water
    and sewer usage and makes quarterly payments to DCWASA based on meter
    readings and estimates DCWASA provides. The DoD Components are required
    to make quarterly payments to the Department of the Treasury for those annual
    estimated bills. See Appendix C for a list of DoD Components, composed of
    16 separate installations, sites, and organizations that received DCWASA
    services.

    Federal Agency Responsibility. Public Law 101-168 mandates responsibility to
    the respective Federal agencies for payment of water and sewer services. The


                                             1
    funds for the DoD Components receiving water and sewer services come through
    each agency’s operating budgets and their respective appropriations bills for the
    current fiscal year. Each quarterly payment is due to the U.S. Treasury account,
    “Federal Payment for Water and Sewer Services,” on the first day of the quarter.
    If the estimated bill is more than actual usage, the DoD Components receive a
    credit 3 years after the payment, which is the time it takes for billing
    reconciliation.


Objective
    The audit objective was to determine the promptness of DoD FY 2004 second
    quarter payments to the Department of the Treasury for District of Columbia
    water and sewer services. See Appendix A for a discussion of the scope and
    methodology. See Appendix B for prior coverage related to the objective.




                                        2
           DoD FY 2004 Second Quarter Payments
           to the Department of the Treasury
           DoD Components promptly made second quarter FY 2004 payments
           totaling $1.2 million to the Department of the Treasury for District of
           Columbia water and sewer services. Fort McNair, the Navy, Bolling Air
           Force Base, and Walter Reed Army Medical Center were the only DoD
           Components required to pay this quarter. The National Geospatial-
           Intelligence Agency, Washington Headquarters Services, and Arlington
           National Cemetery have credit balances from prior overpayments and
           were not required to make quarterly payments for the FY 2004 second
           quarter. Fort Myer also has a credit balance from prior overpayments,
           though no longer receives services from the District of Columbia Water
           and Sewer Authority.


Promptness of FY 2004 Second Quarter DoD Payments
    DoD Components promptly made second quarter FY 2004 payments totaling
    $1.2 million to the Department of the Treasury for District of Columbia water and
    sewer services. Fort McNair, the Navy, Bolling Air Force Base, and Walter Reed
    Army Medical Center were the only DoD Components required to pay this
    quarter. The National Geospatial-Intelligence Agency, Washington Headquarters
    Services, Arlington National Cemetery, and Fort Myer had credit balances
    totaling $272,000 for the quarter from prior overpayments.

    As shown in the following table, DoD Components were billed $1.5 million, paid
    $1.2 million, and had credits of $272,000 from prior overpayments for the
    FY 2004 second quarter payments.




                                        3
       DoD Components’ FY 2004 Second Quarter Estimated Bills, Credits, and Payments
                                 (As of January 2, 2004)
                                                                Estimated Bills                   Quarterly            Quarterly
                                                          Annual             Quarterly             Credits1           Amount Paid
                                                        (thousands)         (thousands)          (thousands)          (thousands)

Washington Headquarters Services                          $     0              $      0           $ (36)               $ (36)
Arlington National Cemetery                                     0                     0               (64)                    (64)
Walter Reed Army Medical Center                            2,270                    567                  0                    567
                   2
Fort McNair                                                   51                    13                   0                     13
               3
Fort Myer                                                       0                     0             (143)                 (143)
         4
Navy                                                       2,051                    513                  0                    513
Bolling Air Force Base                                     1,661                    415                  0                    415
National Geospatial-Intelligence Agency                         0                    0                (29)                    (29)
       Total                                             $6,033              $1,508                $(272)               $1,236
1
    For FY 2004, Washington Headquarters Services received a total credit of $144,000, Arlington National Cemetery received a
    total credit of $254,000, Ft. Myer received a total credit of $572,000, and the National Geospatial-Intelligence Agency
    received a total credit of $118,000 because of excess charges in prior years.
2
    Fort McNair includes National War College and National Defense University Center. Fort McNair and Fort Myer are both
    part of the Fort Myer Military Community.
3
    Fort Myer no longer receives services from DCWASA.
4
    Includes Anacostia Naval Station, Bellevue Naval Housing, Naval Observatory, Marine Corps Barracks (8th and I),
Naval Research Laboratory, Nebraska Avenue Annex, Potomac Annex, and Washington Navy Yard.




                                                                    4
Appendix A. Scope and Methodology
   We reviewed DoD Component billing and payment information for the second
   quarter of FY 2004 for District of Columbia water and sewer services.
   Specifically, we reviewed the billing information for DoD Components received
   from the Department of the Treasury to establish the amounts billed for water and
   sewer services. We contacted the Department of the Treasury to confirm that
   funds available to DoD Components were withdrawn to pay the District of
   Columbia for FY 2004 second quarter water and sewer bills. See Appendix C for
   a list of DoD Components that received water and sewer services from
   DCWASA.

   We performed this audit from December 2003 through January 2004 in
   accordance with generally accepted government auditing standards.

   We did not review management controls because the audit is required every
   3 months by statute and an audit of the management control program, Inspector
   General of the Department of Defense (IG DoD) Report No. D-2002-140, has
   already been issued.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD high-risk area identified as, “Confront and transform pervasive, decades-
   old financial management problems.”




                                       5
Appendix B. Prior Coverage
    During the last 5 years, the IG DoD has issued 13 reports discussing the
    promptness of DoD payments to the Department of the Treasury for District of
    Columbia water and sewer services. Unrestricted IG DoD reports can be accessed
    at http://www.dodig.osd.mil/audit/reports.


IG DoD
    IG DoD Report No. D-2004-010, “Promptness of FY 2004 First Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” October 15, 2003

    IG DoD Report No. D-2003-118, “Promptness of FY 2003 Fourth Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” July 15, 2003

    IG DoD Report No. D-2003-079, “Promptness of FY 2003 Third Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” April 15, 2003

    IG DoD Report No. D-2003-049, “Promptness of FY 2003 Second Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” January 15, 2003

    IG DoD Report No. D-2003-010, “Promptness of FY 2003 First Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” October 15, 2002

    IG DoD Report No. D-2002-140, “Measurement of Water Usage by DoD
    Components Serviced by the District of Columbia Water and Sewer Authority,”
    August 20, 2002

    IG DoD Report No. D-2002-128, “Promptness of FY 2002 Fourth Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” July 15, 2002

    IG DoD Report No. D-2002-082, “Promptness of FY 2002 Third Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” April 15, 2002

    IG DoD Report No. D-2002-040, “Promptness of FY 2002 Second Quarter DoD
    Payments to the U.S. Treasury for District of Columbia Water and Sewer
    Services,” January 15, 2002

    IG DoD Report No. D-2002-007, “Promptness of FY 2002 First Quarter DoD
    Payments to the U.S. Treasury for District of Columbia Water and Sewer
    Services,” October 15, 2001


                                       6
IG DoD Report No. D-2001-159, “Promptness and Completeness of FY 2001
Fourth Quarter DoD Payments to the U.S. Treasury for Water and Sewer Services
Provided by the District of Columbia,” July 13, 2001

IG DoD Report No. D-2001-100, “Promptness and Completeness of FYs 2000
and 2001 DoD Payments to the U.S. Treasury for Water and Sewer Services
Provided by the District of Columbia,” April 13, 2001

IG DoD Report No. D-2001-053, “DoD Payments to the U.S. Treasury for Water
and Sewer Services Provided by the District of Columbia,” February 15, 2001




                                  7
Appendix C. DoD Customers of the District of
            Columbia Water and Sewer
            Authority
According to DCWASA, the list below identifies the 16 DoD Components for which
DCWASA provided estimated bills to the Department of the Treasury for water and
sewer services during FY 2004.

      Army
       Arlington National Cemetery
       Fort McNair
       Walter Reed Army Medical Center
      Navy
       Anacostia Naval Station
       Bellevue Naval Housing
       Marine Corps Barracks (8th and I)
       Naval Observatory
       Naval Research Laboratory
       Nebraska Avenue Annex
       Potomac Annex
       Washington Navy Yard

      Air Force
       Bolling Air Force Base
      Other Defense Organizations
       National Defense University Center
       National Geospatial-Intelligence Agency
       National War College
       Washington Headquarters Services




                                           8
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Other Defense Organizations
Director, National Geospatial-Intelligence Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Inspector General, Department of the Treasury




                                          9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        10
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

David K. Steensma
Henry F. Kleinknecht
Ronald W. Hodges
Miwon Kim
Courtney V. Biggs
Theresa Tameris
